<html>
<title> - CHINA'S IMPACT ON THE U.S. EDUCATION SYSTEM</title>
<body><pre>[Senate Hearing 116-30]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 116-30

              CHINA'S IMPACT ON THE U.S. EDUCATION SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 OF THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION
                               __________

                           FEBRUARY 28, 2019
                               __________

        Available via the World Wide Web: http://www.govinfo.gov
        

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
                 
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-158PDF                 WASHINGTON : 2019                  




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               David M. Weinberg, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                      Thomas Spino, Hearing Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
JOSH HAWLEY, Missouri                JACKY ROSEN, Nevada

            Andrew Dockham, Staff Director and Chief Counsel
                John Kilvington, Minority Staff Director
                      Kate Kielceski, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Portman..............................................     1
    Senator Carper...............................................     4
    Senator Peters...............................................    15
    Senator Hassan...............................................    17
    Senator Romney...............................................    19
    Senator Hawley...............................................    28
Prepared statements:
    Senator Portman..............................................    37
    Senator Carper...............................................    42

                               WITNESSES
                      Thursday, February 28, 2019

Jason Bair, Acting Director, International Affairs and Trade, 
  U.S. Government Accountability Office..........................     8
Walter Douglas, Deputy Assistant Secretary, Bureau of East Asian 
  and Pacific Affairs, U.S. Department of State..................    10
Hon. Jennifer Zimdahl Galt, Principal Deputy Assistant Secretary, 
  Bureau of Educational and Cultural Affairs, U.S. Department of 
  State..........................................................    12
Hon. Mitchell M. ``Mick'' Zais, Ph.D., Deputy Secretary, U.S. 
  Department of Education........................................    14

                     Alphabetical List of Witnesses

Bair, Jason:
    Testimony....................................................     8
    Prepared statement...........................................    49
Douglas, Walter:
    Testimony....................................................    10
    Prepared statement...........................................    66
Galt, Hon. Jennifer Zimdahl:
    Testimony....................................................    12
    Prepared statement...........................................    71
Zais, Hon. Mitchell M. Ph.D.:
    Testimony....................................................    14
    Prepared statement...........................................    75

                                APPENDIX

Staff Report.....................................................    80
Letter from Deputy Secretary Zais to Inspector General Sandra 
  Bruce..........................................................   176
Exhibit 1........................................................   178
Exhibit 2........................................................   187
Responses to post-hearing questions for the Record:
    Mr. Zais.....................................................   190

 
              CHINA'S IMPACT ON THE U.S. EDUCATION SYSTEM

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2019

                                   U.S. Senate,    
              Permanent Subcommittee on Investigations,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rob Portman, 
Chairman of the Subcommittee, presiding.
    Present: Senators Portman, Romney, Hawley, Carper, Hassan, 
and Peters.

            OPENING STATEMENT OF SENATOR PORTMAN\1\

    Senator Portman. The Permanent Subcommittee on 
Investigations will come to order. Welcome, Senator Carper.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Portman appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    Senator Carper. Thank you, Mr. Chairman. Hi, witnesses. 
Welcome.
    Senator Portman. Last night, Senator Carper and I issued a 
report\2\ detailing concerns about China's impact on the U.S. 
education system. The report is the result of an 8-month 
investigation that details our concerns focused on the China 
Confucius Institutes.
---------------------------------------------------------------------------
    \2\ The report referenced by Senator Portman appears in the 
Appendix on page 80.
---------------------------------------------------------------------------
    Based on our findings, we are here to focus on a couple of 
issues: transparency and reciprocity.
    Transparency in how American colleges, universities, and K-
12 institutions manage Confucius Institutes, which are 
controlled, funded, and mostly staffed by the Chinese 
Government and aim to promote Chinese language, culture, and 
interests on U.S. campuses.
    Lack of reciprocity in how China does not permit U.S. State 
Department programming in China, we will hear more about that 
today. Our report details how China--known for its one-sided 
dealings in trade sometimes--uses similar tactics in its unfair 
treatment of U.S. schools and the State Department and their 
efforts in China.
    Let me be clear. I support cultural exchange. I support 
cultural exchanges with China and other international exchanges 
more broadly. I am for engagement, but there must be 
reciprocity and there must be appropriate engagement, without 
the Chinese Government determining what is said and done on 
U.S. campuses. The law must be followed. This is why 
transparency is so important.
    U.S. officials have expressed concerns about China's 
influence through its Confucius Institutes. Recently, the 
Federal Bureau of Investigations (FBI) Assistant Director for 
Counterintelligence testified before the Senate Judiciary 
Committee that Confucius Institutes are, and I quote, ``not 
strictly a cultural institute'' and ``that they are ultimately 
beholden to the Chinese Government.''
    The State Department has labeled Confucius Institutes 
``China's most prominent soft power platform.''
    Higher education groups have also expressed concern. The 
American Council of Education, the National Association of 
Scholars, and the American Association of University Professors 
have all recommended that U.S. schools fundamentally change how 
they manage Confucius Institutes--or consider discontinuing 
them altogether.
    We know that Confucius Institutes exist as just one part of 
China's broader, long-term strategy, but China has invested 
significantly in them, giving more than $158 million to U.S. 
schools since 2006. That is over 12 years, not 1 year, 
incidentally, as I said yesterday.
    China has also opened more than 500 Confucius Classrooms at 
U.S. K-12 schools. Expanding the Confucius Classroom program is 
a priority for them. A document obtained by the Subcommittee 
details a plan to expand Confucius Classrooms by seeking, and I 
quote, ``top-down policy support from the State government, 
legislative and educational institutions, with a particular 
emphasis on access to the support from school district 
superintendents and principals.''
    Over the last 8 months, we interviewed U.S. school 
officials, teachers, and Confucius Institute instructors. We 
also reviewed tens of thousands of pages of contracts, emails, 
financial records, and other internal documents obtained from 
more than 100 U.S. schools with either active or closed 
Confucius Institutes.
    Since our investigation started, more than 10 U.S. schools 
announced they would be discontinuing their Confucius 
Institutes.
    We found that Chinese funding for Confucius Institutes 
comes with strings attached--strings that can compromise 
academic freedom.
    The Chinese Government vets and approves all Chinese 
directors and teachers, events, research proposals, and 
speakers at U.S. Confucius Institutes.
    Chinese teachers at U.S. Confucius Institutes sign 
contracts with the Chinese Government pledging that they will 
follow Chinese law and ``conscientiously safeguard China's 
national interests.''
    Some schools contractually agree that both Chinese and U.S. 
laws will apply at the Confucius Institutes on U.S. school 
campuses. Think about that for a second. These are American 
universities agreeing to comply with Chinese law on their own 
campuses.
    This application of Chinese law at U.S. schools results in 
exporting China's censorship of political debate and prevents 
discussion of some politically sensitive topics.
    As such, numerous U.S. school officials told the 
Subcommittee that Confucius Institutes were not the place to 
discuss topics like the independence of Taiwan or the Tiananmen 
Square massacre.
    Simply put, as one U.S. school administrator told us: ``You 
know what you are getting when something is funded by the 
Chinese Government.''
    Investigators from the Government Accountability Office 
(GAO) also spoke with U.S. school officials, who acknowledged 
that hosting a Confucius Institute could limit events or 
activities critical of China, and not just at the Confucius 
Institute but also elsewhere on campus. We will hear from Mr. 
Bair about that today.
    In response to the growing popularity of Confucius 
Institutes, the U.S. State Department initiated its own public 
diplomacy program in China. The Chinese Government effectively 
shut it down.
    Since 2010, the State Department has provided $5.1 million 
in grant funding for 29 ``American Cultural Centers (ACCs)''--
in China. Through the program, a U.S. school would partner with 
a Chinese school to set up a cultural center, which would 
enable Chinese students to better understand U.S. culture.
    The Chinese Government stifled the program from the start.
    Seven of the 29 ACCs never even opened.
    The ACCs that did open found they needed permission from 
their Chinese partner schools--sometimes including local 
Chinese Communist Party officials--to even hold events.
    Eventually, the State Department stopped funding the 
program altogether. Again, we will hear about that program 
today.
    While the State Department is mostly known for its overseas 
diplomacy efforts, it also has oversight responsibilities right 
here in the United States.
    The State Department conducts Field Site Reviews to ensure 
that foreign nationals who come to the United States on 
Exchange Visitor Program visas are here for their stated 
reason.
    While there are roughly 100 Confucius Institutes, again, at 
colleges and universities in the United States, the State 
Department has conducted Field Site Reviews at only two. The 
State Department found serious problems at both of those 
schools.
    The State Department revoked more than 30 visas for Chinese 
exchange visitors at Confucius Institutes who were only 
supposed to be working at the university that sponsored their 
visa, but were actually teaching in Confucius Classrooms at 
local K-12 schools.
    The State Department discovered evidence of ``fraudulent 
paperwork and coaching'' that was a ``deliberate attempt to 
deceive'' investigators.
    Moreover, the State Department told us that it does not 
collect visa information specifically related to Confucius 
Institutes, so we do not know how many Confucius Institute 
teachers there are or where they are.
    Our investigation also identified failures at the 
Department of Education that have contributed to a lack of 
transparency and oversight of schools that take money from 
foreign governments.
    Under law, if a U.S. school receives more than $250,000 
from a single foreign source in 1 year, it is required to 
report that data to the Department of Education, which in turn 
publishes it.
    Our investigation found that nearly 70 percent of the 
schools that should have reported receiving funds for a 
Confucius Institute from China did not.
    When a school fails to report a foreign gift, the 
Department of Justice (DOJ) can force a school to comply, but 
only at the request of the Secretary of Education. The 
Department of Education has never referred these types of cases 
to the Department of Justice. Not once.
    The Department of Education has not issued any guidance 
since October 2004--over 14 years ago--the same year that China 
opened its first Confucius Institute. It is time for new 
guidance.
    Our investigation found that schools in the United States, 
from kindergarten to college, have provided a level of access 
to the Chinese Government that the Chinese Government refuses 
to provide to the United States.
    This brings us back to our two key points: transparency and 
reciprocity.
    Absent full transparency regarding how Confucius Institutes 
operate and full reciprocity for U.S. cultural outreach efforts 
on Chinese campuses, Confucius Institutes should not continue 
in the United States, in my view.
    With that, I turn to Senator Carper for his opening 
statement.

             OPENING STATEMENT OF SENATOR CARPER\1\

    Senator Carper. Thanks Mr. Chairman. I want to thank you 
for your attention to this issue. I want to thank our staffs, 
both the minority side and the majority side, for the 
bipartisan work that went into this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 42.
---------------------------------------------------------------------------
    I am going to go off script just for a minute, if I could, 
and put this hearing into context. Earlier in my life I was a 
naval flight officer, served three tours in Southeast Asia. 
There are the names of 50,000 men, some women, on a big wall, a 
granite wall just near the Lincoln Memorial that I run by every 
now and then. When I run by it, I brush my hand, my fingers 
across the names of the people I served with.
    I had the privilege in 1991 of leading a congressional 
delegation to Vietnam, Cambodia, and Laos to find out what 
happened to thousands of the missing in action (MIAs) and to 
try to see if there might be a way to get onto a road map to 
normalized relations between the United States and the 
Vietnamese at the behest of President George Herbert Walker 
Bush's administration. We had an incredible codel and had a 
very emotional meeting with the brand-new leader of Vietnam, 
and put us on the road map to normalize relations. Our 
colleagues John Kerry and John McCain worked it hard in the 
Senate; our delegation worked it hard in the House. One of the 
members of my delegation actually became our first U.S. 
Ambassador to Vietnam, a united Vietnam, in decades.
    When it was all over, fast forward, almost 3 years ago this 
April, President Obama invited John Kerry, John McCain, and 
myself to go back with him to Vietnam to reaffirm our improving 
relations, and to expand our trade relations with them, 
including our defense and military cooperation with Vietnam, 
the country that killed 50,000 of our men and women and as 
attested to by this wall I run alongside every now and then.
    One of the things we learned from my visit there was that 
the U.S. Ambassador, this was 3 years ago. He said, ``I have 
two popular opinion polls that were taken of the Vietnamese 
people.'' Three years ago. He said, ``One of them, taken by a 
group other than the United States, found that 95 percent of 
the Vietnamese have a positive opinion toward the United 
States.'' Higher than any other nation, 95 percent.
    We commissioned our own survey and found that 90 percent of 
the Vietnamese people had a positive opinion of us. I describe 
it as they like us more than we like us. Think about that.
    The reason why I say that, I do not know if my colleagues 
went to Munich during our last recess, but about 15 of our 
colleagues went to Munich for a big security meeting to kind of 
reaffirm our allegiance to our European allies and the North 
Atlantic Treaty Organization (NATO). An important meeting. But 
it was hosted in Munich. In World War II, we lost hundreds of 
thousands of troops because of that country and their leaders. 
Today they are one of our best allies. The same situation with 
Japan.
    I think it is important to remember that the folks who 
might be a dreaded enemy at one point in time in our history 
can turn around and be our best friends and our best allies. It 
is important that we try to make sure that our relationship 
with China turns out good for them and good for us. I think the 
point that our Chairman makes is reciprocity. For me that is 
maybe the most important element to take away from this 
hearing. The idea that they are trying to share with us their 
culture, their language, I think that is great. It is a huge 
country. But with the idea they should be reciprocating and 
welcome our opportunities to do the same thing.
    Now I am back on script. Ready? This will only take about 
an hour--no, it will not.
    Anyhow, the words that I know in Mandarin, I know ``ni 
hao.'' I know ``xie xie,'' ``thank you.'' I know how to say 
``Happy New Year'': ``Xin nian kuai le.'' That is pretty much 
it. If I were just speaking in Chinese, it would be a short 
statement. Unfortunately for you, it is not that short.
    More than 2 years ago now, the Russian Government launched 
an unprecedented attack on our country. Using disinformation 
and stolen emails, they took advantage of Americans' growing 
use of social media in an attempt to stir up conflict and 
influence the 2016 election by boosting the campaign of one 
candidate while denigrating the campaign and the candidacy of 
another.
    Today reports are already emerging that disinformation 
campaigns, targeting a number of the Democrats seeking to run 
against President Trump, have already begun. Given what our 
country has been through in recent years and what we are 
preparing to grapple with in 2020, it is important that we be 
vigilant in combating foreign efforts to influence American 
public opinion regardless of where they originate.
    Today we will be examining the quiet efforts by the Chinese 
Government to improve its image in Americans' minds through its 
Confucius Institutes.
    China opened its first Confucius Institute outside of Asia 
in the United States about 15 years ago, and it did it at the 
University of Maryland. The Chinese have this fixation with 
Terrapins, so they picked Maryland, I am told, for that reason. 
It has since opened roughly 100 of its 500 institutes 
throughout the country. In this country there are about 100 of 
them.
    In addition, half of the 1,000 Confucius Classrooms that it 
runs through its Confucius Institutes are in our primary and 
our secondary schools.
    Activities at the individual Confucius Institutes that our 
staffs visited and examined varied quite a bit. At one school, 
the Chinese visitors at the Confucius Institute perform 
research and work as teaching assistants in for-credit Mandarin 
classes, which we could probably all benefit from.
    At other schools, the Chinese visitors taught more 
informal, non-credit classes to both college students and 
members of the community. These classes focused on everything 
from Mandarin for business travelers to topics like Chinese 
cooking, which we enjoy, and Chinese art, which a lot of us 
enjoy.
    In a handful of schools, Confucius Institute staff focused 
almost exclusively on placing visiting language teachers in K-
12 schools in the area.
    At all of the schools, Confucius Institute staff seemed to 
focus a significant amount of time on events like Chinese New 
Year parties, and I have been to a few of those, and they are 
fun.
    As best we can determine, these institutes spread around 
our country do not appear to be overt efforts by the Chinese 
Communist Party to spread pro-China or anti-American 
propaganda. There is also no evidence we have uncovered that 
suggests that they are a center for some kind of Chinese 
espionage efforts or any other illegal activities.
    That said, we nonetheless need to be mindful of where the 
story told by these Confucius Institutes is coming from.
    FBI Director Wray and others have expressed concerns about 
the presence of Confucius Institutes in our schools because 
they were conceived by and are funded by a Chinese Government 
that has a much different world view than ours.
    The $158 million that China has spent on Confucius 
Institutes in the United States come from a government that 
routinely stifles free speech, stifles debate, and stifles 
dissent in its own country.
    It is a government that monitors and jails religious and 
ethnic minorities and has a violent history of oppression.
    It is also a government that routinely targets us through 
hacking and industrial espionage and threatens Taiwan and our 
other close allies in Asia militarily. I would add it is a 
country that basically has tried to blockade, keep other ships, 
including U.S. naval vessels, out of the South China Sea and 
places where I used to operate, flying many missions during the 
Vietnam War on surface surveillance of that part of the world.
    Participants at Confucius Institute-sponsored activities 
will not get the full story on these issues, and that is 
because, under the contracts that U.S. schools have signed with 
the Chinese Government, Chinese officials can veto programming 
they do not like. The staff sent from China to run the 
institutes are prohibited under their individual contracts from 
doing anything ``detrimental to national interests.''
    Despite my concern about the Confucius Institutes and 
China's goals for them, I welcome, as I may have implied 
earlier, greater opportunities for Americans to learn more 
about China, visit the country, and speak Mandarin. I want 
Chinese citizens to visit here and learn more about us and our 
language and culture as well.
    When I was there not long ago--I think it was an Aspen 
Institute visit--one of the things I said to a group of Chinese 
that we met with, ``There is more that unites us than divides 
us, and let us try to figure out how we can focus more on the 
former, maybe less on the latter.''
    Data reported by the Department of Education indicate that 
as many as 400 million people in China are attempting to learn 
English. According to a 2018 Pew Research study, more than 90 
percent of European primary and secondary school students are 
learning a foreign language. At the same time--get this--only 
20 percent of American students are working to learn another 
language. Not good.
    We need to do better than that. At a time when the world is 
getting smaller, when our country is growing more diverse, and 
when so many American jobs are reliant on global trade, it is 
in our Nation's best interest for more Americans to learn 
foreign languages, and that includes Mandarin.
    To the extent that there is unmet demand in our country for 
Chinese language education, we should be filling it rather than 
allowing the Chinese Government to fill it.
    The report we have released recommends a number of steps 
that schools with Confucius Institutes can take to change their 
relationship with the Chinese Government and assert the 
supremacy of free speech, free debate, and academic freedom on 
their campuses.
    In closing, we also make recommendations to the U.S. 
Departments of Education and State to ensure that Confucius 
Institutes are operating within the law. We call on the Chinese 
to stop blocking our efforts in cultural outreach in their 
country.
    As I stated earlier, it is crucial that we continue to be 
vigilant in combating foreign efforts to influence public 
opinion in our country. But if we take any other lessons away 
from today's hearing, I hope it is that, in order to preserve 
our economic competitiveness and protect our national security, 
we need to make certain that our students are learning about 
other cultures and studying Mandarin and other key languages, 
too.
    With that, I will just say again ``ni hao'' and ``xie 
xie.'' Welcome. Thank you.
    Thank you, Mr. Chairman. I am sorry that I took so long. I 
was with Max Baucus. Max Baucus was on an elevator here 
yesterday in the Capitol, our immediate past Ambassador, former 
colleague here, Senator from Montana. One of the things I 
mentioned to him briefly was our hearing today, and he said he 
would be interested in following up with us, and he could 
probably give us some good insights. We look forward to those.
    Thank you so much.
    Senator Portman. Thank you, Senator Carper, and thank you, 
my friend, for partnering on this report, as always, and to 
your staff.
    As you probably have noticed, there is not a lot of 
bipartisanship here on Capitol Hill. We keep this Committee as 
nonpartisan as possible, and as a result, we have done some 
pretty good work that has resulted in some important 
legislation, as we did today.
    I would like to now introduce our panel of witnesses for 
the hearing.
    Jason Bair is the Acting Director of International Affairs 
and Trade at the U.S. Government Accountability Office.
    Walter Douglas is the Deputy Assistant Secretary for the 
Bureau of East Asian and Pacific Affairs at the State 
Department.
    Jennifer Galt is the Principal Deputy Assistant Secretary 
for the Bureau of Cultural and Educational Affairs at the State 
Department.
    And Mick Zais is the Deputy Secretary at the U.S. 
Department of Education.
    It is the custom of this Subcommittee to swear in 
witnesses, so at this time I would ask you all to please stand 
and raise your right hand. Do you swear that the testimony you 
are about to give before this Subcommittee is the truth, the 
whole truth, and nothing but the truth, so help you, God?
    Mr. Bair. I do.
    Mr. Douglas. I do.
    Ms. Galt. I do.
    Mr. Zais. I do.
    Senator Portman. Thank you. Please be seated.
    Let the record reflect the witnesses all answered in the 
affirmative. Your written testimony, ladies and gentlemen, will 
all be considered to be part of the record, so you do not need 
to give your entire statement. We would ask that you try to 
limit your oral testimony to 5 minutes so we will have a chance 
for a real dialogue after your oral testimony.
    Mr. Bair, why don't we start with you?

  TESTIMONY OF JASON BAIR,\1\ ACTING DIRECTOR, INTERNATIONAL 
    AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Bair. Chairman Portman, Ranking Member Carper, and 
Members of the Subcommittee, I am pleased to be here today to 
discuss GAO's work on Chinese involvement in U.S. higher 
education.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bair appears in the Appendix on 
page 49.
---------------------------------------------------------------------------
    My testimony summarizes two GAO reports: one issued 
yesterday on Confucius Institutes, and one issued in August 
2016 on U.S. universities operating in China. I will start by 
discussing our observations on the 96 Confucius Institutes 
operating on U.S. college campuses.
    My overall message is that Confucius Institute agreements 
vary in some key areas, and stakeholders have identified 
opportunities to improve those agreements.
    In examining the agreements between U.S. universities and 
Hanban, an affiliate of the Chinese Ministry of Education, we 
found that there are a variety of issues that can be addressed.
    Regarding the applicability of school policies, we found 
that about one-third contained language that applied U.S. 
school policies to the operation of the Confucius Institutes.
    Regarding the public availability of the agreements, we 
found that only approximately half contained language that made 
the agreement confidential or limited the ability of either 
party to release the agreement.
    Regarding funding, we found that Hanban generally provides 
startup funds, annual funds, teachers and their salaries, and 
teaching materials, while U.S. schools generally provide in-
kind support such as campus space and staff to help manage the 
Confucius Institute.
    Regarding teachers, we found that Confucius Institute 
teachers from China taught a mix of both credit-bearing and 
non-credit courses at different schools. However, none of our 
10 case study schools used the materials provided by Hanban in 
their credit-bearing classes.
    We also gathered suggestions for improving the Confucius 
Institutes from school officials, researchers, and others. They 
suggested improvements in two main areas.
    First, they suggested improving the language of the 
agreements. Specifically, several people suggested removing the 
confidentiality language from the agreements and making them 
available online in order to dispel any questions or concerns 
about what they contained.
    In addition, some school officials, researchers, and others 
suggested that agreements should include even stronger 
language, making it clearer that the U.S. school has ultimate 
decisionmaking authority when it came to operating the 
Confucius Institute.
    Second, they suggested improvements in the operation of the 
institutes. For example, some school officials suggested to us 
that Confucius Institute teachers should not teach credit-
bearing course on campuses, even if they were using the 
curriculum that had been developed by the U.S. school.
    In addition, some officials suggested that Confucius 
Institutes should choose to organize events on topics that are 
sensitive to China in order to demonstrate that neither the 
school nor the institute is subject to undue Chinese influence.
    Moving now to our 2016 report on U.S. universities 
operating in China, my key message is that U.S. universities do 
emphasize academic freedom, but they face a variety of 
challenges. At the time of our review, 12 U.S. universities 
were operating degree-granting institutions in China. In 
reviewing their written agreements and other policies, we found 
that they did include a variety of protections for academic 
freedom. For example, one university's agreement stated that 
everyone at the institution in China will have unlimited 
freedoms of expression and inquiry and would not be restricted 
in the selection of research or lecture topics.
    We also interviewed more than 130 faculty and students who 
generally reported that academic freedom had not been 
restricted for them and that they could study and discuss any 
topic. However, we identified two key challenges to learning at 
U.S. universities in China.
    First, fewer than half of the universities that we reviewed 
had uncensored Internet access. Students and faculty told us 
that having restricted access to the Internet limited both 
their teaching and their research.
    Second, administrators, faculty, and students representing 
more than half of the universities gave examples of self-
censorship. For example, an administrator at one university 
suggested that it was advisable as a guest of China to refrain 
from insulting China. Another administrator noted that the 
university advises teachers to avoid discussing sensitive 
subject in their classes.
    Chairman Portman, Ranking Member Carper, and Members of the 
Subcommittee, that concludes my prepared statement. I look 
forward to your questions.
    Senator Portman. Thank you, Mr. Bair. Mr. Douglas.

  TESTIMONY OF WALTER DOUGLAS,\1\ DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Douglas. Chairman Portman, Ranking Member Carper, 
Members of the Subcommittee, thank you for the invitation to 
discuss the State Department's public diplomacy efforts in 
China.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Douglas appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    U.S. diplomats carry out a range of public diplomacy 
activities in China. This includes both policy-related 
messaging as well as cultural and education exchanges. Our 
diplomats do this work despite restrictions by Chinese 
authorities, which I will describe in more detail later in this 
statement.
    Our public diplomacy in China is conducted through our six 
diplomatic posts there: the U.S. Embassy in Beijing and five 
consulates spread throughout China. We have a total of about 
110 staff--including Chinese-speaking American diplomats and 
local employees--as well as a budget of $31 million to support 
public diplomacy functions.
    By and large, Chinese citizens welcome U.S. public 
diplomacy, but the Chinese Government impedes access to some 
segments of Chinese society, including in academic settings.
    To give a recent example, this past November U.S. 
Ambassador to China Terry Branstad was scheduled to speak at a 
Chinese university campus, but the visit was canceled with just 
2 days' notice. This is just one of many cases of unexplained 
and sudden cancellations experienced by U.S. diplomats 
attempting to visit universities.
    We have also seen the obstruction of programs related to 
the U.S. Government-funded American Cultural Centers. The 
American Cultural Center grant program was started in 2010 
specifically for China. Until it was discontinued in 2018, the 
program awarded a total of about $5 million in grants ranging 
from $10,000 to $100,000. These grants were given to 29 
American universities to establish American Cultural Centers on 
Chinese university campuses.
    Although the program had many successes in the early years, 
beginning in 2014 Chinese authorities started unduly 
restricting the activities of our centers. In 2015 and 2016, 
severe restrictions came into effect, and some of the centers 
were forced to close down. Today there are three remaining U.S. 
universities that are conducting previously funded American 
Cultural Center-related activities, which they will conclude by 
the summer of 2019.
    These restrictions on American Cultural Centers stand in 
stark contrast to the ability of Confucius Institutes to 
operate free from government obstruction in the United States.
    In 2017, the U.S. Embassy in Beijing decided to discontinue 
funding for the American Cultural Center program. This decision 
was solidified in a recommendation by the Department's Office 
of Inspector General (OIG).
    Chinese universities or scholars who would like to engage 
with U.S. diplomats are often prevented from doing so, either 
by their university's internal foreign affairs officers or by 
security authorities. When meetings do take place, Chinese 
authorities require participants to submit detailed reports of 
their conversations. These intimidation tactics pressure our 
interlocutors to be cautious--they refuse or limit interaction 
with U.S. diplomats. As a result, the ability of U.S. diplomats 
to engage with ordinary Chinese people is stifled. In contrast, 
we note that Chinese diplomats here in the United States 
regularly address public audiences, free from obstruction by 
the U.S. Government, including on university campuses.
    U.S. Government-funded exchange programs are another way we 
engage the next generation of China's leaders and opinion 
makers. For example, the International Visitor Leadership 
Program brings between 120 and 150 rising leaders each year 
from across China to the United States for 3-week study tours. 
However, unlike in other countries, authorities force about 20 
percent of the candidates to withdraw their participation at 
the last minute. This is yet another avenue through which the 
Chinese Government limits who can have access to information 
about the United States. The State Department takes notice when 
incidents like these take place. In just one 16-month period, 
there were more than 150 instances involving denial of 
permission to meet an official, cancellation of an event with a 
partner organization, withdrawal of a Chinese participant from 
a U.S. Government-funded exchange program, or intimidation of a 
Chinese citizen who had been in contact with U.S. embassy or 
consulate personnel.
    We continually convey to the Chinese Government that we 
expect reciprocal access for U.S. diplomatic personnel and 
programs in China. In spite of these restrictions, we work to 
reach the broader Chinese public through traditional media and 
social media. In particular, our diplomatic posts in China 
maintain a robust social media presence, reaching an average of 
more than 3.5 million Chinese citizens each day. Our social 
media postings receive thousands of likes, comments, and shares 
daily, showing the Chinese public's eagerness to engage in 
discussion about U.S.-related topics.
    But similar to the restrictions placed on our direct campus 
engagement, our social media platforms in China experience 
censorship by the Chinese Government several times each week. 
This censorship stands in stark contrast to the unhindered use 
of social media enjoyed by the Embassy of China in Washington, 
D.C., which launched its Facebook page over a year ago.
    We continually convey to the Chinese Government that the 
United States expects reciprocity in the use of social media. 
The Department welcomes the Subcommittee's inquiry into the 
questions of reciprocity regarding U.S. and Chinese public 
diplomacy efforts. As noted in the report, the Department's 
public diplomacy efforts in China have indeed experienced 
restrictions. This presents a challenge but not an 
insurmountable one. The State Department continues to work 
toward reaching ordinary Chinese citizens, in facilitating 
dialogue between our peoples, and in promoting American values.
    Thank you, Mr. Chairman. I look forward to answering your 
questions and those of other Members of the Subcommittee.
    Senator Portman. Thank you. Ms. Galt.

   TESTIMONY OF THE HON. JENNIFER ZIMDAHL GALT,\1\ PRINCIPAL 
DEPUTY ASSISTANT SECRETARY, BUREAU OF EDUCATIONAL AND CULTURAL 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Galt. Chairman Portman, Ranking Member Carper, Members 
of the Subcommittee, thank you for the opportunity to speak 
with you today. My testimony will focus on the State 
Department's responsibility to regulate and monitor the 
participation of Chinese nationals in the Exchange Visitor 
Program. This program makes it possible each year for over 
300,000 exchange visitors from nearly 200 countries and 
territories to travel to the United States to participate in 
educational and cultural exchanges.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Galt appears in the Appendix on 
page 71.
---------------------------------------------------------------------------
    As mandated by Congress, the State Department's Bureau of 
Educational and Cultural Affairs works to advance U.S. foreign 
policy by building friendly, peaceful relations through 
exchange programs that strengthen national security, support 
U.S. international leadership, and provide a broad range of 
domestic benefits.
    The Fulbright Program and the International Visitor 
Leadership Program are the U.S. Government's flagship exchange 
programs funded through annual congressional appropriations. In 
addition to these, the Bureau oversees fee-funded exchange 
visitor programs, which are carried out by nearly 1,500 public 
and private entities that the State Department designates as 
sponsors; no appropriated funds are spent on these programs.
    The Office of Private Sector Exchange is sponsored with 
promulgating, implementing, and enforcing Federal regulations 
that govern all aspects of the Exchange Visitor Program. 
Entities seeking designation must apply separately for 
authority to conduct programs in one or more of the 13 private 
sector categories of exchange.
    Exchange visitors from China comprise approximately 11 
percent of the more than 300,000 Exchange Visitor Program 
participants from around the world.
    Chinese exchange visitors associated with U.S. colleges and 
universities that host Confucius Institutes are one element of 
Chinese participation in the Exchange Visitor Program. 
Confucius Institutes are typically set up as collaborations 
between a U.S. and a Chinese university. The State Department 
does not have a role in the creation or funding of Confucius 
Institutes. Our responsibility begins when a U.S. college or 
university that is a designated sponsor places an exchange 
visitor in a role that is related to a Confucius Institute.
    As part of our its routine sponsor monitoring, the Office 
of Private Sector Exchange learned in 2012 that a number of 
Chinese exchange visitors participating in the Research Scholar 
category were inappropriately placed at K-12 schools as Chinese 
language teachers. Accordingly, the Department issued a 
Guidance Directive to potentially affected sponsors providing 
procedures for regularizing the program status of exchange 
visitors who were under the incorrect category. The Guidance 
Directive clarified that exchange visitors in one of the 
university-based academic categories cannot serve as primary 
teachers for K-12 students--activities that more appropriately 
belong in the Teacher category.
    Follow up reviews since 2012 have shown that in some 
instances Chinese exchange visitors continued to teach at K-12 
schools. As a result, the Office of Private Sector Exchange has 
further focused its monitoring efforts and taken steps to 
improve compliance.
    In November 2017, the office wrote to the nearly 1,000 
college and university sponsors reminding them of the 2012 
Guidance Directive. We have conducted ``meet and greets'' with 
25 academic program sponsors affiliated with Confucius 
Institutes and carried out five more targeted field site 
reviews and electronic site reviews. We have scheduled four 
field site reviews for 2019, and we will conduct additional 
electronic reviews. This effort has prioritized institutions 
where the potential for category confusion appears to be the 
greatest.
    Two of the previous field site reviews and two of the 
electronic reviews resulted in the issuance of Letters of 
Concern to the sponsors, documenting areas of regulatory 
vulnerability and encouraging them to modify their programs to 
achieve and maintain regulatory compliance. Where K-12 teaching 
associated with Confucius Institutes was problematic, these 
university sponsors have since ceased those activities based on 
our outreach to them. In two cases, the Office of Private 
Sector Exchange worked closely with the Bureau of Consular 
Affairs which revoked the visas of exchange visitors who had 
entered the United States to teach, but not through a sponsor 
properly designated in the Teacher category.
    The Department of State takes seriously its oversight 
responsibility of the Exchange Visitor Program and its 
obligation to monitor designated sponsors and exchange visitors 
for possible violations of the regulations. We continue to 
refine our processes to improve regulatory compliance of all 
designated sponsors, including those who work with Confucius 
Institutes.
    Mr. Chairman, I thank you for your attention to the 
critical issue of Chinese interference in U.S. education. The 
Bureau of Educational and Cultural Affairs stands ready to 
cooperate with your ongoing review of this matter. I am happy 
to answer any questions you might have. Thank you.
    Senator Portman. Thank you, Ms. Galt. Dr. Zais.

  TESTIMONY OF THE HON. MITCHELL M. ``MICK'' ZAIS, PH.D.,\1\ 
         DEPUTY SECRETARY, U.S. DEPARTMENT OF EDUCATION

    Mr. Zais. Chairman Portman, Ranking Member Carper, Senator 
Hassan, thank you for the opportunity to appear before you 
today. As a retired Army Brigadier General, former college 
president, and former Chief of War Plans in the Pentagon, I 
understand the importance of ensuring that our colleges and 
universities remain free from malign foreign influence. These 
concerns surfaced about 30 years ago, and consequently, in 1986 
Congress amended the Higher Education Act of 1965 to require 
institutions to disclose gifts from and contracts with foreign 
sources.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Zais appears in the Appendix on 
page 75.
---------------------------------------------------------------------------
    In your letter of instruction and invitation, you noted 
your intent to examine the Confucius Institutes and the impact 
of the Chinese Government on the U.S. education system. You 
asked me to address foreign gift reporting, and I am pleased to 
respond on both issues. Before addressing the Confucius 
Institutes, I will provide information on the foreign gift and 
contract disclosure requirements.
    The law requires that 2-year and 4-year degree-granting 
institutions disclose gifts from and contracts with a foreign 
source in the amount of a quarter of a million dollars or more 
in 1 year. Also, any institutions owned by or controlled by a 
foreign source must disclose this information.
    Since these requirements have been in place, the Department 
has issued two Dear Colleague letters--one in 1995 and one in 
2004--to clarify these issues and provide instructions for 
submitting reports. These requirements are also included in the 
Federal Student Aid Handbook.
    There are approximately 3,700 institutions in the United 
States that are covered by these requirements. Most recently, 
fewer than 3 percent of those institutions reported receiving 
foreign gifts in excess of a quarter of a million dollars from 
a single source or country.
    There are limitations to the reports since the data are 
self-reported. Some colleges and universities have independent 
but affiliated nonprofit research, endowment, and alumni 
foundations which deliver contracts and gifts. It is unclear 
which schools report foreign gifts that are channeled through 
these foundations since the statute does not reference them.
    To collect the required information, the Department uses 
the same electronic system that schools use to apply for 
Federal student aid. The system reminds and prompts 
institutions to provide the required information.
    Since 2012, the Department has made these reports available 
on the Federal student aid websites in the interest of 
transparency. The information is updated twice a year.
    During the most recent school year, 91 institutions 
reported receiving gifts of over $1.3 billion in gifts and 
contracts from sources in 105 countries. China ranked first in 
the amount, with about $222 million in gifts and contracts. 
This constituted about 17 percent of the total.
    Regarding the impact of the Chinese Government and 
Confucius Institutes on higher education, we recognize this is 
a concern. As you know, Confucius Institutes are partnerships 
between the Chinese Government and U.S. colleges and 
universities, each of which has their own agreement. Recently, 
as you know, a number of these institutions have terminated 
their agreements. We fully understand and share your concern 
about the need to keep malign foreign interests from 
compromising the academic integrity of American colleges and 
universities while respecting the importance of institutional 
autonomy and academic freedom.
    As your Subcommittee reviews the issues presented by the 
Confucius Institutes, the Chinese Government, and foreign gifts 
and contracts to our colleges and universities, the Department 
stands ready to work with you on the way forward. Thank you for 
the opportunity to testify today, and I look forward to your 
questions.
    Senator Portman. Thank you, Dr. Zais, and thanks to all our 
witnesses. We look forward to a dialogue. I will be here for 
the entire hearing, and I see some of my colleagues have 
arrived and have conflicts. I am going to delay my questions 
until they have a chance. I will first turn to Senator Carper.
    Senator Carper. Let me yield to Senator Hassan, if you 
would like to go first. I am going to be here for the duration.
    Senator Hassan. I think I am yielding to Senator Peters. We 
will just play musical chairs here. [Laughter.]
    Senator Carper. In that case I am not going to yield to---- 
[Laughter.]
    Because I do not like this guy. I am happy to yield.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Well, thank you, Mr. Chairman and Ranking 
Member, and, Senator Hassan, thank you so much.
    Senator Hassan. You are welcome.
    Senator Peters. I certainly want to thank the Chairman for 
hosting this very important hearing on the impact on our 
Nation's education system that the Chinese may be having, and I 
thank our witnesses for being here today.
    This hearing is certainly consistent with our bipartisan 
work in the Committee, and, particularly as the principal 
oversight Committee for the U.S. Senate, with how seriously all 
of us take the oversight function. In that vein, I actually 
have a question outside of the scope of this hearing, but one 
that is incredibly important for the oversight of the 
Administration, and that is to Deputy Secretary Zais.
    Deputy Secretary Zais, on January 3, 2019, the Department 
of Education Acting Inspector General (IG) Sandra Bruce 
received a letter from you urging her to, and I quote, 
``reconsider any plan that her office might have to review'' a 
Department of Education decision. I think the letter has just 
been handed to you. Is that your signature at the bottom of the 
letter?\1\
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Peters appears in the Appendix 
on page 176.
---------------------------------------------------------------------------
    Mr. Zais. Yes, sir, it is.
    Senator Peters. Deputy Secretary, did Secretary DeVos or 
her designee or any employee of the White House direct you to 
send that letter?
    Mr. Zais. No, Senator, they did not.
    Senator Peters. You just did that on your own?
    Mr. Zais. I worked with the staff and the chief of staff in 
composing that letter.
    Senator Peters. As you are aware, the subject of the 
Education Department decision being reviewed by the Acting 
Inspector General was the Accrediting Council for Independent 
Colleges and Schools (ACICS). It is a major accreditor for for-
profit colleges. Did you, Secretary DeVos, or her designee 
communicate with ACICS or anyone acting on their behalf 
regarding the IG investigation?
    Mr. Zais. We did not.
    Senator Peters. As mentioned, your letter was sent on 
January 3. On January 31, Ms. Bruce was notified that she was 
being replaced as Acting Inspector General by the Department's 
General Counsel (GC), a decision that was later reversed under 
pressure. The Department has confirmed that the decision to 
replace Ms. Bruce was initially recommended by the Department, 
not the White House. Did you participate in conversations with 
Secretary DeVos or her designee, or with any White House 
employee regarding the designation of a new Acting Inspector 
General?
    Mr. Zais. I did not.
    Senator Peters. Earlier this week, my colleagues on the 
Education Committees received a response from the Department to 
an oversight letter on this topic. Unfortunately, the 
Department's response was wholly inadequate and does not 
address the vast majority of our questions, concerns, and 
requests for documentation. The Department's response cites, 
and I quote, ``Executive Branch confidentiality interests'' as 
a reason not to produce the requested documentation.
    My question to you: Has the President invoked Executive 
privilege?
    Mr. Zais. Not to my knowledge, Senator.
    Senator Peters. Has the Department performed a document 
search of records that would be responsive to the request of my 
Education Committee colleagues or the follow-up letter from 
February 19th that was sent from the Democratic leadership of 
all House and Senate Education and Oversight Committees, 
including this full Committee?
    Mr. Zais. Senator, I do not know, but I certainly will 
investigate.
    Senator Peters. Has the Department issued a preservation 
order to ensure that documents responsive to our request will 
not be destroyed?
    Mr. Zais. I can assure you that documents will not be 
destroyed that are relevant.
    Senator Peters. This is my final point, and thank you 
again, Mr. Chairman. Can I have your commitment that my 
colleagues and I will receive a full and complete response to 
our letters from February 1st and February 19th no later than 
March 5th?
    Mr. Zais. Senator, we will work to expedite response to 
your inquiries.
    Senator Peters. I appreciate it. I appreciate your answers. 
Thank you so much.
    Mr. Chairman, thank you very much.
    Senator Portman. OK. I plan to reclaim my time unless my 
colleagues are going to ask questions about this hearing.
    Senator Carper. I am happy not to speak yet, but I just 
want to say that was probably the most succinct series of 
responses I have heard in 18 years.
    Senator Portman. Yes, very succinct, and that was good. But 
are we going to talk about the focus of our 18-month 
investigation? If not, I will ask some questions about that.
    Senator Hassan. I certainly have questions about the 
report. I certainly as a member of the Health, Education, Labor 
and Pensions (HELP) Committee also have the same concerns that 
Senator Peters raised, and so I think, as always, we respect 
each other's use of our time.
    Senator Portman. Exactly, but I just want to be sure we 
have the opportunity to ask some questions about----
    Senator Hassan. Of course. I have questions prepared for 
that, but I also just want to indicate that I share the 
concerns that Senator Peters just raised.
    Senator Portman. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair, and I want to thank 
you, Senator Portman and Ranking Member Carper, for your 
continued attention to the issue of foreign influence in the 
United States education system. Thank you to all of the 
witnesses for being here today, for your service, for your 
appearance, and for your very informative testimony.
    I want to start with a question to you, Mr. Zais, and to 
Mr. Douglas. It is clear that U.S. schools have challenges with 
establishing and maintaining Confucius Institutes. For example, 
faculty at some schools have raised concerns that Hanban, the 
Office of Chinese Language Council International, is able to 
exert influence over the development of curriculum or program 
requirements related to Chinese studies at U.S. schools. I 
think I speak for all of us in saying that the Chinese 
Communist Party cannot have an unchecked voice or promote a 
select agenda in the United States as part of a larger 
propaganda or government-directed national campaign.
    To address some of these concerns, some schools have 
developed their own safeguards against influence on academic 
affairs through faculty-led initiatives. For example, the 
University of New Hampshire has taken steps to ensure that all 
curriculum and programs are developed solely by its own 
faculty, hired a tenure-track faculty member to direct Chinese 
studies programs, and put in place processes for the review and 
approval of Confucius Institute's programs and course material 
by an academic oversight committee in the College of Liberal 
Arts.
    Let us start with Mr. Zais. In addition to some of the 
recommendations in the Subcommittee report that highlight the 
need for additional transparency, is there a role for the 
Department of Education to support schools that wish to 
continue to implement these kinds of safeguards to help ensure 
the integrity of these programs?
    Mr. Zais. Senator, we are always concerned with 
institutional autonomy, academic freedom, and any threats to 
academic freedom. We will work with schools at their request to 
help guarantee that, and if they request support in crafting 
appropriate agreements, we would be willing to provide that 
support.
    Senator Hassan. Do you think it is appropriate, though, for 
the Department to reach out? Because now that this report has 
been issued and there have been some concerns about the 
behavior of some of these institutes on some campuses, it may 
be incumbent on the Department to do the kind of outreach to 
schools that may not be aware of this report or may not be 
aware of some of the activities that some of the Confucius 
Institutes and their members have engaged in.
    Mr. Zais. We are willing to work with the Committee to make 
all of our Hanban institution schools and sponsors aware of the 
results of these investigations and reports.
    Senator Hassan. OK. Let me ask, Mr. Douglas, I would like 
to understand how the Department of State can engage Chinese 
Government representatives in ensuring that Confucius Institute 
contracts are developed in consultation with U.S. entities and 
are transparent?
    Mr. Douglas. OK. Let me say my responsibilities start at 
the water's edge and go out rather than in.
    Senator Hassan. OK.
    Mr. Douglas. As I mentioned in my remarks, when we are 
harassed overseas, we regularly bring this up with the Chinese 
authorities and expect reciprocity. But on the agreements that 
they have with the universities, we do not interfere with that.
    Senator Hassan. Ms. Galt, is that your realm?
    Ms. Galt. Senator, I would be happy to answer that. The 
State Department, as I mentioned in my testimony, does not have 
authority over Confucius Institutes per se because they are not 
designated sponsors to host international visitors to the 
United States.
    Senator Hassan. Between the Department of Education and the 
Department of State, how are we going to get to a place where 
we are following some of the recommendations of this report? 
Because my colleagues have mentioned and you have shared today 
recommendations that certain components of the contract should 
be eliminated, including the components that make the contracts 
confidential. How is--or who among and in the executive branch 
is going to say to the Chinese Government keeping these 
contracts confidential is not acceptable?
    Ms. Galt. I would just say as a Department we are involved 
in a larger discussion with U.S. universities about the 
importance of transparency and about the importance of 
protection of academic freedom. That conversation is ongoing, 
and we are involved in that conversation.
    Senator Hassan. I think what I would like to suggest is 
that we be more involved. I think there has to be a way to let 
the Chinese Government know that if they have an interest in 
having these institutes on our college campuses, their 
contracts have to be transparent, that they cannot keep the 
terms of those contracts confidential. I would look forward to 
working with all of you to figure out how we can make that 
happen.
    Ms. Galt. We would welcome the opportunity to discuss that 
further.
    Senator Hassan. OK. I thank you for that. I do want to get 
back--and I respect the Chair's interest in making sure we 
focus on the report, which is a very important report and 
something that, again, I think we all need to continue to work 
to implement the recommendations of. But I did just want to go 
back, Mr. Zais, to follow up on what I think I heard was a 
commitment from you and the Department to Senator Peters. I am 
on the HELP Committee. I have been on letters to the Department 
to try to understand why the ACICS entity was recredentialed. I 
have expressed concerns about the Department's citations, about 
recommendations for this entity that were not true. I want to 
make sure that we do, in fact, get a response, a much more 
adequate response than the letter we got from Mr. Oppenheim on 
February 25th to our letters about this.
    Can I have your commitment that the Department will provide 
a full and complete response to the letters sent on February 
1st and 19th? Can you do it no later than March 5th?
    Mr. Zais. Senator, we will work to expedite a response.
    Senator Hassan. OK. Please just note also for the record 
that this letter cites something called the ``Executive Branch 
Confidentiality Interest,'' and I am unaware of such an 
interest that would allow the Department to fail to respond to 
a congressional inquiry.
    Thank you.
    Senator Portman. Senator Carper.
    Senator Carper. I would say to our fairly new member of our 
Subcommittee, sometimes the Chairman and I will yield to other 
folks on our Committee before we ask questions if they have 
other things they need to be doing, and I would be happy to 
yield to you, if you would like.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. I thank the Ranking Member for yielding and 
also the Chairman, the two of you, for bringing together this 
group and opening a discussion on something that I think is 
quite important. I appreciate the various witnesses coming 
today and testifying and providing information and perspective.
    I think it is pretty clear that we and China have very 
different views on a whole host of very important topics, and I 
was just writing out a list here, but everything from how we 
deal with and welcome minorities in our civilization, what we 
believe about diversity, what we think about single-party rule, 
or how we would deal with Taiwan, for instance. Our perspective 
on censorship is very different. Our perspective on human 
rights is very different. The rule of law in our Nation and in 
their nation is very different. The South China Sea is an area 
of great conflict. The list goes on and on. We have a number of 
things that are very different between the perspectives of a 
free people in the United States of America and the leadership 
of China.
    I wonder whether these Confucius Institutes are part of an 
influence campaign by the Chinese Government to shape attitudes 
and the minds of the American children, the coming generations, 
as to those kinds of differences. Is this really a propaganda 
effort, a mind-shaping effort of our young people being carried 
out through the auspices of these Confucius Institutes? I would 
ask for your perspective and whether you believe that is the 
case.
    Ms. Galt. Senator--first of all, thank you for the 
question. I would say generally the State Department supports 
international educational exchange. We support Americans 
learning critical languages. As you may know, the Bureau of 
Educational and Cultural Affairs, thanks to congressional 
support, conducts a number of programs to teach Americans. 
Language is critical to our national security, including 
Mandarin Chinese. We have the Gilman Fellowship for Young 
Americans, and we also have the National Security Language 
Initiative, which supports both high school and college 
students to go overseas and study languages critical to the 
United States' national security.
    Senator Romney. That makes all the sense in the world, to 
study other languages and to learn about other cultures. But 
the question I have is whether the Chinese Government is 
selecting individuals, funding individuals into our educational 
institutions with the intent not just of letting us learn an 
important global language and a different culture, but also to 
gain a perspective on a host of issues where they and we have 
differing points of view, whether this is, in effect, an 
influence campaign, whether it is being financed as an 
influence campaign to shape public opinions of our young 
people.
    Mr. Bair. Thank you for the question. I would say that in 
the course of the work that we did looking at Confucius 
Institutes, the one thing that really popped out for us was the 
variety of activities that they do. You certainly heard about 
the language training, and I think as Ranking Member Carper 
talked about in his statement, there are a variety of other 
cultural events that they focus on, holiday celebrations, 
cooking events or things like that. We did not really focus on 
questions you were focused on there, but I think that it is 
notable, the variety of activities that they perform.
    Senator Romney. I am not sensing anyone jumping to the bait 
on that, and perhaps we do not have information about that. I 
guess that is the question in my mind, which is, I would 
welcome the chance to learn about a foreign language, the 
culture of another people, but it would be a very different 
matter to have people coming in from another nation that has 
such dramatically different perspectives than we do in our 
country if their intent in coming to our country is to 
inculcate those attitudes and views among our young people. I 
would hope that there is a way for us to be able to determine 
whether that is occurring and the extent to which it is 
occurring, and if it is occurring, to provide a warning to 
educational institutions about the potential concern that would 
obviously be attached to something of that nature.
    You have also spoken about reciprocity and the opportunity 
for us to be able to share our culture and language in their 
nation. That has apparently been very difficult to obtain, the 
kind of reciprocity that we had hoped, and I would anticipate 
that the degree to which we are able to welcome and provide 
visas and so forth to those that want to become part of 
Confucius Institutes here would be gauged to a certain degree 
to the kind of welcome we receive there and wonder whether we 
are taking action to make sure that there is, if you will, a 
reciprocity here with the degree of welcome that we have there. 
Is that the case or is there more to be done there?
    Mr. Douglas. Yes, and because I am here to speak about what 
we do in China, when we are harassed or when things are blocked 
or upset, we regularly protest to the Chinese Government that 
we expect the same treatment here that we give to your embassy 
in the United States. We regularly make those protests. How 
successful they are, that is another matter, but we do 
regularly approach them. I have done it myself actually when I 
have been visiting China and make it very clear that we expect 
that.
    Senator Romney. Yes, that is, I think, wise and effective. 
I would also suggest that in some respects we might respond in 
the same way with their requests that they respond to ours. It 
is one thing to protest when they do things that we do not 
approve of. It is another thing to say, well, if you are going 
to do that to people that we are trying to encourage to be part 
of your system, why, then, we are going to do the same to 
yours. That seems to concentrate the mind more than protest.
    I am happy to return the time back to the Ranking Member or 
the Chairman. I think my time is up.
    Senator Portman. Thank you. I really appreciate your 
comments, Senator Romney, and I think you are hitting the nail 
on the head. I think the question is whether this Confucius 
Institute funding and the activities that they engage in is 
something that is consistent with our traditions here. What we 
found in our report, of course, is that it is not. The GAO 
found the same thing in their reporting, and I think Mr. 
Douglas might be a little more forthcoming in a moment when he 
talks about how we are treated over there, because you are 
absolutely right, we do not have reciprocity there. This is why 
the State Department has to actually shut down our program 
there because they cannot operate and so there is no 
reciprocity. Mr. Douglas has been good about that in his 
opening statement, and we are going to ask him some more 
questions about it. I appreciate your questions, but also your 
insights, and I think they are accurate.
    Mr. Bair, thank you for working with us, and, in fact, 
issuing your report last night in conjunction with ours. You 
did a separate investigation. Yours had a slightly different 
focus, as you indicated, but I think we both showed that there 
is a lack of transparency at these U.S.-based Confucius 
Institutes that does implicate academic freedom, among other 
things.
    You have talked about the level of control and the lack of 
transparency. For example, officials told the Subcommittee that 
the Confucius Institutes were not the place to discuss topics 
like the independence of Taiwan or the Tiananmen Square 
massacre.
    Your report said, for example, that researchers told you 
that a Confucius Institute ``could choose to avoid hosting 
events on certain topics elsewhere on campus, such as Taiwan, 
Government of Tibet, or the Tiananmen Square massacre so as not 
to offend its Chinese partners.'' Can you elaborate on that 
self-censorship?
    Mr. Bair. Absolutely. Thank you for the question. I think 
that is an important topic, and it is one of the central issues 
that we dealt with in our report.
    Let me start with the issue of transparency. I think as I 
talked about in my opening statement, one of the notable things 
about the agreements that we got copies of between the U.S. 
university and their Chinese partner was whether those 
agreements were going to be able to be publicly available. What 
we found was that 42 of the 90 contain specific clauses making 
them confidential or in some way limiting the public release of 
those documents. When we talked to a variety of stakeholders 
and faculty and administrators, a number of them raised that 
issue. Whether it was real or apparent, it creates at a minimum 
concern about what is in those agreements. A number of 
universities that we spoke to were willing to share those 
agreements with us, and I think a number of the stakeholders 
think that that is a really important first step.
    Senator Portman. Mr. Bair, let me take you to Exhibit 1 
just because you made the point about these contracts. If you 
look in your binder, it is in front of you, and I will, without 
objection, enter Exhibit 1\1\ into the record today.
---------------------------------------------------------------------------
    \1\ Exhibit 1 referenced by Senator Portman appears in the Appendix 
on page 178.
---------------------------------------------------------------------------
    There are some concerning provisions. For instance, the 
contract States, as you will see there, that the Chinese 
instructor should ``conscientiously safeguard national 
interests.'' Again, these are Chinese instructors who are here 
on a visa in the United States. The contract terminates if the 
Chinese instructors ``violate Chinese laws''--so they are 
subject to Chinese laws here in America--or ``engage in 
activities detrimental to national interests.''
    This is on a college campus where we pride academic 
freedom, and these are the restrictions placed on that 
Confucius Institute instructor. We were not able to find many 
contracts because, as you say, they are hard to find and some 
are confidential. This one might have been, but we were able to 
obtain it.
    Your report also found that some school officials expressed 
concerns that the Confucius Institute hiring process did not 
follow their own hiring processes for teachers at the 
university. In fact, your report found that some schools did 
not have, as I quote from your report, ``full control over 
selecting its teachers.''
    Why is it concerning that U.S. schools have foreign 
teachers, one, signing these contracts with contract law to be 
enforced by Chinese law; and that, second, conscientiously 
safeguarding the national interests is one of the requirements 
and they can be terminated if they engage in activities 
detrimental to national interests, in addition to the fact that 
these schools are not following their normal hiring procedures 
in order to hire these individuals, some of whom do teach 
credit courses? Can you respond to that?
    Mr. Bair. Let me try to the best of my ability to talk 
about what we heard during the course of our review, and you 
very appropriately point out some of the concerns that, 
frankly, were expressed to us as well about the hiring process 
for these teachers.
    I will say we heard a mix of views. We certainly talked to 
a number of universities that either had chosen to close their 
Confucius Institute or had considered opening a Confucius 
Institute but had made a decision not to. One of the reasons 
was that they did not feel like they had full control over the 
hiring process, and that was a deal breaker for them. They made 
a decision that they thought was in the best interest of their 
university.
    Some of the Confucius Institutes that we visited that were 
open during the course of our review, though they may have had 
some concerns, felt that they had the final decisionmaking 
authority over who they would hire, and they were choosing from 
a set of applicants. They were comfortable with that decision. 
The opinions really differed on that issue.
    Senator Portman. On research, quickly, your report found 
that Confucius Institutes also sponsored Chinese-related 
research projects for U.S. students and U.S. professors, and 
those proposals had to be approved by the Chinese Government 
first. You said that several school officials expressed concern 
or uncertainty about whether a Confucius Institute would 
sponsor a research project on a ``topic that could include 
criticism of China.''
    Going to academic freedom and research, that certainly is 
not consistent, as Senator Romney was talking about, with our 
traditions here.
    Mr. Douglas, so much to talk about in terms of the Chinese 
part of this. Let me just ask you something sort of 
straightforward here. Can you describe to us what reciprocity 
means in international relations? Quickly.
    Mr. Douglas. I am not a lawyer, and I do not know what the 
legal term is, but I assume----
    Senator Portman. But you are a diplomat.
    Mr. Douglas. Right. If one side does something, the other 
side could do it, too.
    Senator Portman. Yes. The State Department has found that 
the Chinese Government essentially shut down one State program 
known as the ``American Cultural Centers.'' We talked about 
this earlier. Let me ask you a couple questions about the State 
Department and your relationship with ACC programs as compared 
to what we talked about in terms of the Chinese relationship 
with the Confucius Institutes.
    Do State Department contracts with the ACC programs have a 
clause that says that the schools must conscientiously 
safeguard U.S. interests?
    Mr. Douglas. No.
    Senator Portman. Do you vet or screen U.S. professors for 
the ACC program?
    Mr. Douglas. No.
    Senator Portman. Does the State Department require that 
they approve every ACC event?
    Mr. Douglas. No.
    Senator Portman. Does the State Department maintain veto 
power over proposed speakers or lecture topics at ACCs?
    Mr. Douglas. No.
    Senator Portman. Does the State Department always provide 
U.S. schools with preapproved textbooks or materials for an 
ACC?
    Mr. Douglas. No.
    Senator Portman. Does the State Department grant agreements 
with U.S. schools that have confidentiality or nondisclosure 
provisions as we talked about?
    Mr. Douglas. Not that I know of, no.
    Senator Portman. To summarize, the State Department does 
not maintain control over teachers, topics, or speakers at an 
ACC in China?
    Mr. Douglas. That is exactly right.
    Senator Portman. OK. That does not sound like reciprocity 
the way you have described it.
    Mr. Douglas. Yes. This is how we deal with it in the 
American system with American values when we go overseas, and 
that is really where in public diplomacy what we focus on, is 
what we do overseas. That is how we operate worldwide.
    Senator Portman. Yes. Let me ask you this: We talked about 
the 100 Confucius Institutes at college campuses and about 500 
in 
K-12. How many American Cultural Centers is the State 
Department funding in China today?
    Mr. Douglas. Three, and they are holdovers. Their funding 
will run out. It is just the remains of what funds they have, 
but the others have been closed down. We stopped the funding.
    Senator Portman. After the summer, how many will there be 
in China?
    Mr. Douglas. They go down to zero.
    Senator Portman. Zero. OK. Thank you. I have exceeded my 
time, but I am going to come back later with more questions.
    Mr. Douglas. Sure.
    Senator Portman. Senator Carper.
    Senator Carper. I am sitting here thinking about a couple 
of our former colleagues. One is a guy named Biden who served 
here for, part of seven terms, and he was the senior Democrat 
on the Foreign Relations Committee for many of those years, 
Chairman for many years. He has a lot of sayings. He and I 
served together in a lot of capacities, and I have heard them 
all. One of my favorite Joe Bidens is, ``All diplomacy is 
personal.'' He also said that about all politics is personal, 
and I think there is a lot of truth to that.
    I was mentioning to our Chairman as an aside earlier in the 
hearing that there was once a rising Chinese official who came 
to the United States and he was interested in learning more 
about agriculture. He wanted to go to our breadbasket, our 
heartland, and he ended up in a couple of States. One of them I 
think was Iowa, and he was hosted by the Governor there. They 
kind of hit it off, had a good visit; the guy learned a lot. 
Later on, the Governor was on a trade mission to China, and 
they would cross paths again. The Chinese official is a guy 
whose last name is Xi, and the American Governor is a guy whose 
last name is Branstad, now our Chinese Ambassador. I think 
about them and their friendship over all these years, and I 
think about what Joe said about diplomacy being personal.
    We had our caucus retreats last month. Democrats had their 
caucus retreats, and Republicans had theirs. We never do them 
together. We almost never eat together either. We focus in our 
retreats on things that divide us. I have talked to some of my 
Republican colleagues about their retreat, my moles, and they 
said they spend a fair amount of time focusing on what divides 
us as well. I think one of the things that is important in our 
relationship with China--it is a huge country, huge trading 
partner, and they are going to be around for a long time, 
hopefully we will, too, and we have to figure out how to get 
along with them.
    Having said that, I do not like being taken advantage of, 
and I should ask the audience: Anybody out there like being 
taken advantage of? None of us do. So, the challenge is how do 
we make sure we are not going to be taken advantage of as a 
Nation, have our stature diminished, our strength diminished by 
these guys and gals, and at the same time do what we can to 
find areas of agreement.
    One of our colleagues is a guy named Enzi here from 
Gillette, Wyoming, a wonderful guy, a Republican conservative. 
He and Ted Kennedy used to have a great relationship when they 
were the senior Senators on a lot of committees that Senator 
Romney is on. The HELP Committee got a huge amount done. I once 
asked Senator Enzi, I said, ``How do you guys work so well 
together?'' He said, ``We focus on the 80-20 rule.'' I said, 
``What is that?'' He said, ``We focus on 80 percent of what we 
agree on. We set aside the 20 percent where we do not agree, 
and we get a lot done as a result.''
    I think it is important for us to use a similar kind of 
rule with the Chinese--focus on the areas where we agree, set 
aside some areas we do not agree--and that is probably not a 
bad recipe. That does not mean we always agree when they try to 
use cybersecurity to steal our trade secrets, or to steal our 
military secrets. That does not mean we should agree with them 
when they do unfair things on the trade side. But having said 
that, it is important that we do find ways to agree.
    Let me ask you a question. I think Senator Romney asked a 
couple of really insightful questions. On the one hand, we want 
to be able to work with these folks where we can. On the other 
hand, we want to make sure we are not taken advantage of. I am 
going to ask each of you: What should we do in response to the 
kind of behavior that we see demonstrated by them and their 
reluctance or refusal to allow us to have reciprocity in their 
countries? What should we do? I think I will start with--a 
fellow whom my staff said, General, your name rhymes with 
``nice,'' and I found it does not. It rhymes with ``mace.'' 
There you go--``face.'' It rhymes with ``face.'' Take a shot at 
that question. Not a real long answer, but you had a great 
series of answers earlier.
    Mr. Zais. Senator, if you know how to get reciprocity while 
still maintaining the lines of communication between our two 
societies, I do not know how to do that. I think we understand 
that everything in Communist China is run by the government. 
All their education system and everything. I do not know how 
you take politics out of interaction with that regime, that 
government.
    Senator Carper. Before I turn to Ambassador Galt, I 
mentioned to our Chairman and to you as well--I will just 
mention to our colleagues--I ran into Max Baucus yesterday, our 
former colleague, former Ambassador to China, and I am very 
much interested in asking him--I just wish we had brought him 
here, pull him out of the audience, pull him up to the table, 
and say, ``Well, what do you think, Max?'' But I would like to 
pick his brain, and I would actually like to pick the brain of 
our current Ambassador there, Terry Branstad, with whom we 
served. Did you serve with him as Governor? He was Governor for 
Life and became Ambassador, maybe for life. We will see. But 
same question. We know we need to figure out how to get along 
with the Chinese. We do not want to be taken advantage of. We 
realize that cultural exchanges can actually be very helpful. 
They have worked in a lot of other places. I guess I am looking 
for the balance, the right balance here. How do we do this? You 
speak how many different languages? Six? Seven? Just use 
English for me.
    Ms. Galt. Thank you, Senator. I am going to go a little bit 
off script here to answer your question.
    Senator Carper. I have gone off script, so you should be 
able to.
    Ms. Galt. I am going to follow your lead. I think this is 
an essential question. I think it is a tough one to achieve 
that balance, so I would like to speak from my professional 
experience as a career diplomat.
    Senator Carper. You can even speak from your heart.
    Ms. Galt. I spent 15 years of my career in China engaged in 
public diplomacy work, engaged in trying to explain the United 
States to the Chinese, and I have found that I think two 
elements of the solution are essential, and we need to just 
keep at them.
    The first element is we need to call the Chinese out when 
they behave badly. Whether it is demarching on a canceled 
speech or an edited set of remarks or not allowing us to go to 
university campuses, I think we need to keep calling them out. 
We cannot do that enough, in my view.
    The second thing I think we need to do----
    Senator Carper. Who is the ``we''? I think you are right, 
but who is the ``we'' in ``we should be calling them out''?
    Ms. Galt. We, the State Department. That is what we do as 
diplomats stationed in mission China, and here in Washington we 
can amplify that message with Chinese diplomats posted here in 
the United States.
    Senator Carper. Occasionally, our President talks to their 
leader as well.
    Ms. Galt. Absolutely. Absolutely, we can do this at all 
levels of our government.
    Senator Carper. And we have congressional delegations that 
go over there from time to time.
    Ms. Galt. Yes. We have U.S. universities who engage, and 
they can share those messages from their own perspective.
    Senator Carper. So maybe the idea of a consistent message 
from ``we''--us.
    Ms. Galt. Yes.
    Senator Carper. Yes.
    Ms. Galt. The second thing I think we need to do is 
continue to share American values and American best practices 
with young Chinese, with the next generation of Chinese. The 
Chinese students represent the largest number of international 
students in the United States, so we know there is continued 
interest in the high-quality American education and the 
innovation and entrepreneurial spirit that we have in the 
United States.
    There is value in the academic freedom and the world-class 
research that American universities offer, and I have to 
believe that that Chinese leader who visited Muscatine, Iowa, 
and the other Chinese who visit the United States learned 
something about our system and that that will make a difference 
in the long run. That is my public diplomacy heart speaking, 
and I think those are two elements of a possible solution, and 
I thank you again for the question.
    Senator Carper. You bet. I said earlier, Mr. Chairman--I 
know my time has expired. Can I have just 2 more minutes for a 
response, please, if you do not mind? I said earlier before 
other colleagues arrived that General Zais had a great series 
of responses of short answers, and I would say your response, 
you just hit a home run, with maybe a couple runners on base, 
so thank you for that.
    Mr. Douglas, I am sorry you have to follow that, but go 
ahead.
    Mr. Douglas. First of all, let me say everything Ambassador 
Galt said I was going to say in various ways the same thing.
    Senator Carper. You would say, ``I am Walter Douglas, and I 
approve this message.''
    Mr. Douglas. That is good enough for me. I have been 
involved with public diplomacy since 1986. I joined the United 
States Information Agency (USIA), and then that has moved on. I 
have served in a number of various places. What you do see is 
that the engagement we have with public diplomacy does tend to 
have a long-term impact, and we see leaders all over the world 
who run our programs. Thirty years later, maybe 20 years later, 
you get the impact from that. We try to track how many of our 
world's leaders and world's cabinet members and those types 
have been on our programs, and we usually come up with a 20 or 
25 percent number.
    The Ambassador recently told me that a recent change of 
government in her country, in the new cabinet that came in, 14 
of the cabinet members had been in one of our programs 
somewhere.
    Senator Carper. OK.
    Mr. Douglas. It gave us an automatic dialogue with those 
people, and friendliness. We see that in China. Ambassador Galt 
mentioned the tremendous number of students who come here. One 
of our programs that is very successful there is EducationUSA. 
We prepare them, give student advising, talk about preparing 
for coming to the United States. They have an impact when they 
come back with a much broader view of the United States.
    Senator Carper. Good.
    Mr. Douglas. I would say that across the board with all of 
our exchange programs. These do have an impact in the long 
term, and they do change attitudes. We have such an attractive 
society, people want to come here, that is a great and 
strategic advantage we have. Our soft power is awesome 
throughout the world, and as a public diplomacy officer, I 
really have seen the impact over time. The more we can expose 
people to the United States, the better off the long-term 
result is.
    Senator Carper. That is great. I am way over my time, Mr. 
Bair. I am not going to ask you--GAO does great work. We love 
what you are doing and value it very much. Thank you all. That 
was terrific. Thank you. ``Xie xie.''
    ``Gong xi fa cai.'' That means, ``Have a prosperous New 
Year,'' in this year of the boar, which just began recently. 
All the best.
    Senator Portman. Thank you.
    I would like to ask Senator Hawley if he has some questions 
and to welcome you to the Subcommittee, as well as Senator 
Romney.
    Senator Hawley. Thank you.
    Senator Portman. As you can see, we are kind of free-
wheeling here. But we also do good nonpartisan work here which 
has ended up with some significant legislation in addition to 
our oversight responsibilities, and we are pleased to have both 
of you on the Subcommittee. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman and Ranking Member. 
It is a privilege to be here and to be part of the 
Subcommittee.
    Let me come back to the public diplomacy angle, and, Mr. 
Douglas, I want to start with you. In your prepared testimony, 
you shared a lot of information, good information about the 
extent of Chinese Government interference and disruption with 
our public diplomacy efforts beyond even the experience of the 
American Cultural Center programs. You noted, for example, the 
Chinese Government efforts to disrupt some of our outreach from 
our embassy in Beijing, social media, etc.
    I want to ask you about Chinese Government disruptions of 
our public diplomacy efforts outside of China and, in 
particular, perhaps the 68 countries that China considers part 
of the Belt and Road Initiative. I am just wondering, 
recognizing, of course, that China's footprint differs across 
those countries, have you noticed explicit cases or are you 
aware of explicit cases of Chinese Government interference, 
interruptions of U.S. public diplomacy efforts in those places? 
If so, what does that look like?
    Mr. Douglas. I would not say it is like that. It is 
generally more there is a competitive space out there that we 
both go and fill. We have our public diplomacy efforts; they 
have theirs. I think because our product is better to sell, and 
that is, in a sense, we have America, the United States and all 
its values, our programs tend to be more popular. We get large 
attendance. We do not have to force anyone to do anything about 
it. While we see they have some public diplomacy programs, I 
would not say they are as effective.
    I would also note that we launched our first ever report of 
Chinese public diplomacy. It was presented in Singapore in June 
2018 in which it underscored what their efforts are, how much 
they tie them into their economic policies. We also found that 
we needed to know more, so we have actually come with round two 
of that, and we have our second report that will be coming out 
in a few months which looks into more aspects of what Chinese 
public diplomacy is in the East Asia and Pacific Region.
    For us, it is really helpful to have a better understanding 
of what they do. Yes, they are out there, but I do not think 
that--because of what they ultimately have to share with other 
countries, I do not think it has nearly the impact that we 
have.
    Senator Hawley. Tell us a little bit about some of the ways 
that the Chinese Government attempts to interfere with our 
public diplomacy efforts apart from and in addition to our 
American Cultural Center programs.
    Mr. Douglas. Yes. We mentioned, for example, they are 
harassing some of our visitors for our International Visitors 
Program, 20 percent. I remember at one point there was even--
one of the participants was at the airport and was pulled back. 
It can go to this very haphazard application.
    I think in the absence of a rule of law it is unclear when 
and how they will do that, and it is something we live with. We 
still think that for the other percents that get through which 
are greater, these programs are very worth it.
    We see the censorship on our social media platforms. We see 
censorship in general of everything we do. They might take an 
op-ed and hack it to pieces, keep some of it, let others be 
printed, other parts of it be printed. All along the line, you 
do not really know what is going to happen. There is a very 
haphazard, unpredictable application of whatever rules and 
regulations they have. We still just have to work with it. It 
is one of the difficulties of working in that country. But our 
officers are still dedicated to doing it.
    I should note that there are--I mentioned Chinese speaking, 
as my colleague over here, and that is a very effective tool 
for us, that we have our officers who can be out there 
interacting not just with, say, Chinese Government officials. 
In public diplomacy, we tend not to do that. But we can cover a 
much broader range of opinion leaders, rising leaders, and 
those types because of our officers.
    Senator Hawley. Tell us a little bit about some of the 
measures that we have taken. You talk about their efforts at 
disruption, some of which you say we just have to live with, we 
press on. But are there measures that we are taking to adapt, 
to respond, to curtail their interference, or just to try and 
get around their interference with our public diplomacy 
efforts?
    Mr. Douglas. I think what we look at--and I could say this 
is true everywhere we go, and I have served in, I do not know, 
nine or ten countries now. We have this toolkit of public 
diplomacy tools, and different ones are appropriate for 
different countries. My last overseas posting was India, an 
open, democratic country. You can pretty much do anything you 
want there. We never got ``no.'' We never had any office say 
you could not do this. We never had anybody censored for what 
they have done.
    But when you go to other countries, you have to look at 
what part of that toolkit is most appropriate. Where can you 
get the biggest bang for the buck? Our public affairs officers 
then choose from that what works and then actually see what 
works.
    I mentioned EducationUSA because we know that the Chinese 
are very interested in studying the United States. It is 
something that they very much welcome, as any college advising 
they have, education advising even below college. What we try 
to do is promote those things where we know we can have a lot 
more success.
    Senator Hawley. Thank you. In my time remaining, I just 
want to come back to the broad topic of these Confucius 
Institutes, which I understand we have been discussing quite a 
lot. I have to say that reading the report, looking at the 
spread of these institutes, the degree of government control is 
really shocking, I think, and I think that the American public 
would be shocked and will be shocked to learn about exactly 
what is going on on these college campuses.
    I am not sure to whom to direct this question, so let me 
just throw it out there for whomever. Can you just talk about 
broadly--I think one question that people will have when they 
hear about this is, well, why would an American college campus 
ever allow something like this to be on there? Why would they 
ever think this is a good idea? Why is that? Do any of you want 
to address that? How does it happen that we find ourselves in 
this circumstance to begin with? Mr. Bair?
    Mr. Bair. I would be happy to start with that. We visited a 
number of colleges and university campuses that host Confucius 
Institutes, and they had a variety of reasons. Some of them 
were interested in attracting more Chinese students, and so 
they thought that having a Confucius Institute might provide 
them some entree to get a greater number of Chinese students. 
As you have heard from others, about a third of the foreign 
students studying in the United States are from China, and so 
they viewed that as very attractive.
    It also was an opportunity for them perhaps to have 
programs that they would not otherwise be able to fund related 
to, let us say, Chinese language. I think those were a couple 
of the key things that they mentioned for us.
    Senator Hawley. How big of a component is funding, do you 
think, the availability of funds for programs the university 
might itself otherwise have to spend its own budget on?
    Mr. Bair. I would say the answer varies significantly by 
university. There are some very large universities which have a 
significant amount of funding available, and for them it is 
going to be less important. But for some of the smaller 
universities that might not otherwise be able to have access to 
those, it could be a more significant pull for them.
    Senator Hawley. I would just note that the Chinese funds, 
the Chinese Government has invested over $158 million in funds 
over just this past decade, which is really staggering, I 
think, and quite significant.
    Thank you all for being here. I see that my time has 
expired. Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator Hawley.
    Senator Romney, follow up questions?
    Senator Romney. I would just add one additional thought, 
which is it is stunning to me that they have effectively closed 
down our cultural centers in China. We are going to be at zero 
by the end of the year. Yet they have 100 here, and we say, 
gosh, we are going to protest, and we are going to express how 
unhappy we are with them doing this. This is not so much a 
question as a comment, which is why are we not saying it is 
going to be harder for you to get visas for people to come here 
to become part of your Confucius centers? Because I think the 
Chinese, like other people, like myself, respond to action, and 
when they are able to keep adding more and more Confucius 
centers and bringing in people and in many cases inculcating 
people with values that we would find foreign and 
inappropriate, that we continue to allow that without taking 
reciprocal action and saying, ``You do not have our centers, we 
are not going to have your centers.'' That would be part one.
    Then part two, I would think it would be simply 
unacceptable in our country to have a faculty member on a 
university campus or at a K-12 institution that is subject to a 
contract with a foreign government as opposed to being subject 
only to the contract, the principles, and procedures of the 
American educational institution. I think in both those things 
we can take action. It is not necessary to have legislation to 
pursue that action, but I think in both cases we need to take 
action to assure that these institutions are, one, not part of 
an influence effort that we would find inappropriate; and, two, 
that the faculty members that are teaching at our institutions 
are abiding by American principles and the contracts of 
American institutions as opposed to the contract of a Communist 
Chinese Government. If you have any comment or thought, I am 
happy to have you have that opportunity.
    [No response.]
    Mr. Chairman, thank you for this----
    Senator Portman. I would like to comment on that.
    Senator Romney. Please.
    Senator Portman. I think, again, you are insightful and 
making good points. I would say two things.
    One, threatening to discontinue the programs here might be 
very effective to open up what you have experienced in China, 
as Mr. Douglas has talked about. What we are talking about 
today, though, in our report is simply having the transparency 
that is required under law. With all due respect, the State 
Department has visited--how many? Two. Two out of the 110, 
until we started our investigation, now 100 colleges and 
universities, and you found violations at both, significant 
violations at both, yet there have not been any other site 
visits.
    Dr. Zais, we know that 33 of the 48, 70 percent, of the 
U.S. schools that should have reported a contribution from a 
foreign government of over $250,000 have not done so. So, 70 
percent of the schools are in violation. Yet you have not 
referred a single one to the Department of Justice, which is 
under law what has to happen. Justice cannot prosecute unless 
you refer.
    It is even worse than you are saying in a sense. We are not 
nearer to the point of suggesting that we discontinue, but what 
we are saying is, unless there is transparency in at least 
following U.S. law, we ought to discontinue the existing 
practice because it is not consistent with traditions and 
practices, as we have talked about here in terms of the 
contracts with these teachers and the lack of academic freedom. 
But, second, it is not even following our own laws, and we are 
not enforcing our own laws.
    Finally, I will say, the second point is that the Chinese 
Communist Party Central Committee just a few days ago published 
a document saying that Confucius Institutes remain a key 
government policy and said that China now plans to optimize the 
spread of Confucius Institutes. I do not blame them. It seems 
like it is working pretty well for them if you are the 
Communist Party in China. We are not sure what ``optimize'' 
means. It might mean a rebranding effort in ways that would 
intend to seek even more of their interests, national 
interests, as we talked about in these contracts, and less 
transparency and less disclosure. I think this is a serious 
concern, and I think both of you outlined that well. We want 
more exchange, of course. We want more engagement. We believe 
that China ought to be a strategic partner in addition to being 
a strategic competitor. Yet it has to be on some basis of a 
level playing field.
    I made the analogy earlier to our trade policy. It is not a 
bad analogy here, where I think Senator Romney is absolutely 
right. I think the way to get the attention of the Chinese 
Government on the trade issue has been to say, if you are not 
going to let our products in and are not going to treat our 
companies fairly, then we are going to have to reciprocate. 
What you find is suddenly they come to the table, which is what 
is happening right now, and our hope is that in the next short 
period of time, maybe the next few weeks, we will have some 
resolution of that. But here we have not even enforced our own 
laws, and so I think we have been able through our 
investigation over the last 8 months and through a lot of 
interviews to be able to obtain enough information to at least 
be sure that the State Department, which does have a 
responsibility here in this country--Ambassador Galt, you are 
not just focused on overseas--and the Department of Education, 
which does have a responsibility here, ought to at a minimum 
follow the U.S. law that is in place, and I think put out new 
guidance. The guidance is 14 years old and was put in place 
when there was one Confucius Institute, as I understand. As it 
grows, we ought to be sure that these universities, colleges, 
high schools, middle schools, and elementary schools know what 
the guidance is.
    Mr. Zais. We agree with you, Senator. This is a concern, 
and we are grateful to you and your Committee for shining a 
light on this issue and bringing it to public attention, and we 
will look forward to working with you to rectify some of these 
issues.
    Senator Portman. Thank you. Let me ask you a couple of 
questions, if I could, with regard to the schools that have not 
reported. What is your intention with regard to acting on that 
and specifically including the Department of Justice by giving 
them the information?
    Mr. Zais. In the past every institution that we have called 
and reminded them of the requirement to report--normally this 
comes to our attention because they reported significant gifts 
in the past and then they have failed to report a gift--they 
have responded appropriately and provided the requested 
information. We have never had an institution that has just 
refused to report, which is why we have never referred a case 
to the Justice Department.
    But I think what the Department needs to do is figure out 
how to be a little more proactive in getting complete reports 
from all of the institutions.
    Senator Portman. With all due respect, when 70 percent of 
the schools, based on our investigation--maybe we are wrong, 
but based on our investigation, 70 percent of the schools are 
not complying. I guess you have to make more phone calls if you 
are saying that is the way to do it, to be sure that they 
understand it. Otherwise, a civil action may be brought by the 
Attorney General (AG) at the request of the Secretary of 
Education. If you are finding that people are not complying 
even though you are providing guidance, maybe that would--as 
was indicated earlier with regard to the Chinese Government on 
reciprocity, maybe that would get people's attention.
    Mr. Zais. Yes, Senator.
    Senator Portman. If you look briefly at Exhibit 2\1\ on the 
table in front of you, it is a Dear Colleague letter dated 
October 4th from the Department of Education to U.S. schools. 
It provides detail on reporting of gifts, contracts, and 
relationships. Without objection, I would like to enter Exhibit 
2 into the record. This is about 15 years old. Do you have a 
plan to issue this updated guidance to U.S. schools regarding 
the reporting of foreign gifts?
---------------------------------------------------------------------------
    \1\ Exhibit 2 referenced by Senator Portman appears in the Appendix 
on page 187.
---------------------------------------------------------------------------
    Mr. Zais. Senator, at the present time we do not have a 
plan, but we certainly look forward to exploring how to clarify 
this guidance document and working with the Committee to 
clarify portions of the statute that are not clear. As I 
mentioned in my testimony, the issue of affiliated independent 
foundations through which gifts and contract dollars are routed 
is not addressed in the statute. We want to clarify that as 
well.
    Senator Portman. We would be delighted to work with you on 
any clarifications on the statute, but the statute is clear 
enough to know that you have to report, and so you were pretty 
forward-leaning earlier in response to some questions on some 
much more difficult issues. I would think on this one you can 
give us a yes, which is that you will issue new guidance. The 
question is when, but you will issue this guidance so we do not 
have these schools continue to be uncertain about what their 
responsibilities are.
    Mr. Zais. Absolutely.
    Senator Portman. That is a yes?
    Mr. Zais. Yes, sir.
    Senator Portman. Great. Thank you, Dr. Zais.
    Ambassador Galt, the same question to you, a yes-or-no 
question. You found problems with visa use at all of your site 
visits, huge problems, relative to, I assume, what you 
expected. You have gone to 2 percent of the Confucius 
Institutes. You found 30 visas had to be revoked at just two 
institutions, 30 visas. Do you have a plan to ensure proper 
visa use at the roughly 98 percent of Confucius Institutes that 
you have not visited?
    Ms. Galt. Thank you, Mr. Chairman, for the question. We 
take our monitoring role seriously, as I said in my statement, 
and let me just describe we have a layered approach to 
monitoring. While we have only done two site visits to date of 
university sponsors that host Confucius Institutes, we have 
four more planned this year, and we also regularly engage in 
what we call ``meet and greets,'' which are meetings with 
sponsors to share information on regulations, to inquire and to 
explore. Out of those we would then conduct electronic reviews 
of the various databases, the Student Exchange Visitor 
Information System (SEVIS) database operated by the Department 
of Homeland Security (DHS), and other databases to explore 
further.
    We have a layered approach. Site visits are only the most 
intensive of our reviews. We have ongoing engagement with our 
sponsors across the full range----
    Senator Portman. Does that ongoing engagement enable you to 
find out whether they are being properly operated, including 
the use of visas?
    Ms. Galt. Yes. It allows us to uncover that, and we would 
then engage in a site visit, as we plan to with four more 
university sponsors that host Confucius Institutes this year.
    Senator Portman. I would suggest that taking it from 2 
percent to 6 percent may be a substantial increase, but not 
nearly adequate if it is the site visit that really is going to 
enable you to determine whether they are properly operating. I 
would hope that today you would tell us that you are going step 
up those efforts.
    Ms. Galt. We will certainly look at that. Our 
investigations to date, we have encouraged--in the two site 
visits, both sponsors have rectified their program 
administration and are now in full compliance. We think that 
our methodology makes sense and our record is good, and we will 
explore further investigations.
    Senator Portman. Dr. Zais, one thing that I think could be 
done is just make schools aware of what is going on. I said in 
the time period of the last 8 months while we conducted this 
investigation, ten programs have been terminated. I cannot say 
that it is strictly because of the questions that we asked all 
110 schools, now 100 schools, but I think it probably had an 
influence on them, because they, frankly, were not aware at the 
higher levels of university leadership what was going on and 
what some of the concerns are that we have raised today.
    I think I heard you say earlier that you intend to provide 
this report to the colleges and universities that are engaged 
in Confucius Institutes. Is that accurate?
    Mr. Zais. Certainly to the 96 institutions that currently 
house Confucius Institutes, but we will send clarifying 
guidance to all of the 3,700 eligible institutions of higher 
education.
    Senator Portman. OK. With regard to the K-12 schools, what 
is your recommendation there? Do you have the ability to also 
send them guidance and summaries of this report?
    Mr. Zais. I do not know what our role in the monitoring of 
K-12 is for Chinese teachers. As State superintendent of 
education in South Carolina, we had Chinese language native 
speakers in some of our language immersion schools. They were 
exchanged. We sent teachers to China to teach English----
    Senator Portman. I am talking about the Confucius 
Institutes. Would you look into that?
    Mr. Zais. We will check into it and see what we can do. I 
am not sure what we can do, Senator.
    Senator Portman. Yes, I am not sure either, but the proper 
communication I think is to provide information----
    Mr. Zais. Yes.
    Senator Portman [continuing]. At this point to those 
institutions as well.
    Mr. Douglas, you said earlier that Chinese diplomats here 
in the United States can speak to whoever they want, and it is 
true.
    Mr. Douglas. Right. Yes.
    Senator Portman. At our rotaries in Ohio, we welcome them. 
We welcome them at our colleges and universities. What is the 
situation in China with regard to U.S. diplomats and their 
ability to speak with whatever group they might choose?
    Mr. Douglas. It sometimes can work and sometimes cannot. 
You cannot guarantee that you will have access to anybody, and 
meetings can get canceled at the very last minute, as happened 
with Ambassador Branstad in November. It is unpredictable.
    Senator Portman. Let me tell you one story we heard during 
our investigation. It was from a U.S. school official--a dean, 
actually--and this dean told us that she was interviewed for 
several hours by Chinese police regarding her school's 
involvement with your ACC program. It was a harrowing 
experience for her. It was a difficult, emotional, tough 
experience.
    Is this something that you believe happens often? Are you 
concerned about U.S. universities essentially self-censoring in 
China because of this kind of harassment?
    Mr. Douglas. That is a very good question. It is something 
we talk about a lot. I cannot give you an answer because I do 
not know that we have data that would sort of prove one way or 
the other. We hear anecdotally things like what you say. I 
cannot say 
that--I do not know how widespread it is. I think maybe people 
are not telling us. We are just a handful of us with a lot more 
American educators over there. But it is a very good question. 
I just do not think I could answer it, definitely.
    Senator Portman. One U.S. school told us they would never 
discuss the topic of Tibet or the topic of Taiwan. That is part 
of our investigation. This was someone who is telling us how 
they are experiencing the ACC program. That sounds like self-
censorship, doesn't it?
    Mr. Douglas. Yes, it sure does.
    Senator Portman. Do you think that is typical?
    Mr. Douglas. I have heard that anecdotally, so I assume it 
is more than just one person who said that. A number have.
    Senator Portman. I appreciate all of you coming today and 
your testimony and work on this. I appreciate the commitments 
that have been made by the Department of Education and the 
Department of State to step up what is the first step in this, 
which is to provide that transparency and information that is 
required by law. I appreciate GAO's continued oversight of the 
Confucius Institutes. I know your report is not the end of you 
work on this, and we look forward to continuing to work with 
you.
    We will now conclude the hearing, and I will tell you that 
we are always open to more information. In particular, this 
record will stay open for 15 days for any additional comments 
or questions you might have, any follow-up that you all feel is 
appropriate. We look forward to continuing to focus on this 
issue to ensure we can at a minimum have the transparency and 
the reciprocity that we think is required.
    Thank you all. The hearing is adjourned.
    [The Committee Report follows:]
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
